                                    NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230


    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

DATE:          Sep 30, 2008

TO:            David A. Elizalde, Director
               Division of Acquisition and Cooperative Support (DACS)

THRU           Jannifer C. Jenkins /s/
               Senior Audit Manager

FROM:          Sherrye McGregor /s/
               Attorney-Advisor

SUBJECT: NSF OIG Audit Report No. OIG-08-6-002
         Audit of Abt Associates, Inc.’s Fiscal Year 2003 Incurred Costs

For your information, we are transmitting an audit report on costs claimed in FY 2003 by
Abt Associates, Inc. (Abt) on four NSF awards1. DCAA performed this work in conjunction
with an audit requested by the US Agency for International Development (US AID), Abt’s
federal cognizant agency. The audit for FY 2003 is complete and includes a review of $2.74
million in costs that Abt claimed for FY 20032 on twelve task orders under NSF Contract
Numbers EEC-9815425, REC-9912174, REC-0230435, and a NSF-General Services
Administration (GSA) Schedule Contract No. GS-10F-0086K. Abt Associates, Inc. provided
technical support and evaluation assistance services to the Division of Education and
Engineering Centers (EEC), the Division of Industrial Innovation and Partnerships (IIP), and
the Division of Research on Learning in Formal and Informal Settings (DRL).

The objectives of the audit were to 1) determine the allowability of direct and indirect costs
claimed to NSF by Abt for FY 2003 and 2) recommend contracting officer-determined
indirect cost rates for the fiscal year ending March 31, 2003. Except for the qualifications
discussed below, the audit was performed in accordance with Generally Accepted
Government Auditing Standards.




1
  The audit report for FY 2002 was issued in OIG Audit Report No. 07-1-019, “Audit of Abt Associates, Inc.’s FY
2002 Incurred Costs.”
2
  Abt Associates fiscal year is April 1 though March 31.
                                                      NSF OIG Audit Report No. OIG-08-6-002




Qualifications Affecting the Audit

As we reported in the transmission of the Abt FY 2002 incurred cost audit report, DCAA
identified Federal Acquisition Regulation (FAR) and Cost Accounting Standards (CAS)
violations in how Abt accumulated, reported, and billed indirect costs on government
contracts. These non-compliance issues arose when Abt changed the base it used to allocate
home office (corporate) expenses and was cited for failing to 1) notify the government of its
cost accounting change; 2) submit a cost impact proposal quantifying the effect of the
accounting change, and 3) use the basis of accounting for its corporate costs as identified in
its disclosure statement. As a result, DCAA estimated that x xxxxx 7 in additional costs
were allocated to the government sector G&A pool in FY 2002. DCAA cannot determine
the amount of additional costs that were allocated to the government sector G&A pool in FY
2003 until it receives the cost impact statement that it has recommended that US AID obtain
from Abt.

In addition, DCAA’s review of claimed pension costs disclosed that Abt may be in
noncompliance with the applicable Cost Accounting Standards governing pension costs and
their reimbursement under government contracts. Specifically, Abt may have not calculated
pension costs correctly because Abt xxxxxx xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Thus, Abt may have recovered pension
costs more quickly than allowed. Approximately $ xxxxxx of pension costs were claimed by
Abt in FY 2003. DCAA recommended that US AID have a CAS review performed to
determine whether Abt has properly amortized its pension costs. However, US AID has not
provided funding or approval for DCAA to perform the audit. Until such a review is
performed, DCAA cannot determine the dollar impact of the pension noncompliance on
Abt’s FY 2003 claimed costs.

Therefore, due to the aforementioned noncompliances, DCAA has qualified its audit opinion
because there may be additional questioned costs identified when the noncompliance issues
are resolved. The cognizant federal agency, USAID, is responsible for resolving Abt’s FAR
and CAS noncompliance issues. As of the date of DCAA’s FY 2003 audit report, and based
on our recent discussions with DCAA and USAID neither of the above issues have been
resolved.

Results of Audit

DCAA did not question any direct costs claimed in FY 2003 on any of the NSF contracts
under audit. However, xxxxxx of claimed consultant and other direct costs were questioned
on other federal contracts because Abt was unable provide support documentation. DCAA
also recommended upward adjustments totaling xxxxxx to two indirect cost bases that Abt



                                              2
                                                      NSF OIG Audit Report No. OIG-08-6-002


uses to allocate indirect costs to its Government contracts because of math errors found at
Abt. This resulted in $1,710 of questioned indirect costs charged to the NSF awards as noted
below.

                                             Questioned Costs Using
                          NSF Contract           DCAA Rates
                        EEC-9815425                 xxxxxx
                        REC-9912174                 xxxxxx
                        REC-0230435                  xxxxxx
                           TOTAL COSTS
                            QUESTIONED
                                                     xxxxxx
                                ON NSF
                            CONTRACTS


DCAA also questioned xxxxxx of unallowable indirect legal expenses in FY 2003, however,
they did not affect the indirect cost rates.

The results of DCAA’s examination and its recommended indirect cost rates are presented
below.

               Indirect Category Proposed Audit Determined Questioned
               G&A                xxxxxx       xxxxxx       Xxxxxx
               Regular Overhead xxxxxx        Xxxxxx        Xxxxxx
               Site Overhead      xxxxxx      Xxxxxx        Xxxxxx
               S/C/M Handling     xxxxxx      Xxxxxx        Xxxxxx
               Regular Fringe     xxxxxx      Xxxxxx        Xxxxxx
               Temporary Fringe   xxxxxx       xxxxxx       Xxxxxx


Conclusion

Abt, in its written response to the audit findings, agreed with DCAA’s questioned costs and
recalculated S/C/M Handling and Regular Overhead indirect rates. We suggest that NSF
contracting officials 1) require that Abt Associates submit revised billings and a revised
incurred cost submission for its FY 2003 NSF contracts to reflect the audit determined
indirect cost rates and 2) coordinate with the US AID Procurement Contracting Officer to
resolve the outstanding CAS issues concerning Abt’s accounting change and pension
calculation methods and determine if there are additional cost reductions to the indirect cost
pools, which will affect the amounts charged to NSF awards.




                                              3
                                                        NSF OIG Audit Report No. OIG-08-6-002


The DCAA audit report and a schedule of questioned indirect costs by NSF award are
attached. Because of its size, Exhibit B of the auditor’s report, identifying a schedule of
allowable costs for all of Abt’s federal contracts will be transmitted separately to your office.

We are providing a copy of this memorandum to the Division Directors of EEC, IIP, and
DRL. The responsibility for coordination with the USAID Procurement Contracting Officer
rests with DACS. Accordingly, we ask that no action be taken concerning the report’s
findings without first consulting DACS at (703) 292-8242.

OIG Transmission of the DCAA Audit Report

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General transmitted the DCAA audit report to NSF. DCAA is
responsible for the attached auditor's report on ABT Associates, Inc. and the conclusions
expressed in the report. NSF OIG does not express any opinion on Abt’s incurred cost
submissions, the indirect rate applications, or the conclusions presented in DCAA’s audit
report.

We thank you and your staff for the assistance extended to us during the audit. If you have
any questions about this report, please contact Sherrye McGregor at (703) 292-5003 or
Jannifer Jenkins at (703) 292-4996.


Attachment: DCAA Audit Report No. 02171-2003J10100002, Audit of Abt Associates, Inc.
           FY 2003 Incurred Costs and Spreadsheet showing Allowable Direct and Indirect
           Costs on NSF Contracts


cc:    Allen L. Soyster, Division Director, ENG/EEC
       Kesh S. Narayanan, Division Director, ENG/IIP
       Joan Ferrini-Mundy, Division Director, EHR/DRL




                                               4
